HHS/OIG-Audit--"Audit of Health and Safety Standards at Child Care Facilities in North Carolina, (A-12-92-00044)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Health and Safety Standards at Child Care Facilities in North
Carolina," (A-12-92-00044)
March 24, 1993
Complete
Text of Report is available in PDF format (4.37 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our review on health and safety standards
at 27 judgementally selected facilities providing services to children in the
State of North Carolina. We found violations of State codes and areas where
improvements can be made at 23 out of 27 facilities visited. The violations
ranged from discrepancies in employees and children records to fire code violations
and unsanitary conditions. Examples of the types of health hazards noted that
placed the children "at risk" were exposure to raw sewage, insect
infestations, dangerous chemicals and fire hazards such as locked exit doors
and unchanged fire extinguishers.